r
Supreme Court, U.S.
FILED

/ r'*

SEP 1 1 202J
P-f

OFFICE OF THE CLERK

IN THE SUPREME COURT OF THE UNITED STATES

US Set Case No.:________________
Lower Tribunal Nos.:
SC Case No.: SC21-986
Case No. 5D20-2609
Case No.l 62016CP000558CPAXMX
MORRIS KENT THOMPSON
Plaintiffs- Appellants.
v.

JENNIFER LEPPEK CERATO,
PERSONAL REPRESENTATIVE
IN THE ESTATE OF NATALIE A. RICHARDS - THOMPSON
Defendants-Cross Appellants.
PETITION FOR WRIT OF CERTIORARI
FROM THE SUPREME COURT OF THE STATE OF FLORIDA AN
APPEAL FROM THE DISTRICT COURT OF APPEALS AND CIRCUIT
COURT THAT ISSUED AN ORDER WITHOUT OPINION OR
EXPLANATION.

Morris Kent Thompson Pro Se
273 Sunshine Drive
Coconut Creek, Florida 33066
Kentthompson.cpa@gmail.com
(786)299-9641
September 3, 2021

RECEIVED
SEP 2't 2021

aaiffassHg
i

Questions for the Supreme Court of the United States.
1. Have the attorney’s and court committed a management override
of the Constitution?
2. When fraud and attorney misconduct is present is the court
required to reopen a probate case to determine the facts?
3. Is the court allowed to coverup criminal actions of government
agencies and government actors?
4. Can government agencies divulge confidential investigations and
information to government actors?
5. Are government actors empowered to investigate and set up
individuals?
6. Is law enforcement to investigate and do such investigation include
running an inquisition?
7. Is torture and terrorizing protected actions by government agencies
and government actors?
8. Is law enforcement allowed to sanction with no due process and
equal protection of the law?
9. Has the court set the precedent under stare decisis to allow false
police reports and perjurious statement under oath?
10. Can we have a fair and impartial Judge when the court and
government agencies conspire to override the right of free speech,
due process, and equal protection?
11. Are government agencies and its informants empowered to
defraud Trusts?
12. Can our State DCA, and Supreme Court allow fraud upon the
court?
13.Has the government become destructive?
2

J

r

5
>

Table of Contests
Page
Table of Contents
3
Index of Appendix
3
Table of Authorities
3-4
Opinion of the Lower Court
4
Jurisdiction
4
Preface
5
Background
6-14
Argument - Probate Case
14-21
A. Constitutional Issues
21-23
B. Statutory Scheme Supports Appellants Claim
23-25
Conclusion
25-26
Certificate of Compliance
27
Certificate of Service
27
Certificate of Interested Persons and Corporate Disclosure Statement
27
INDEX OF APPENDIX
Decision of the Florida Court of Appeal 5th District
Decision of the Florida Probate Court 5th Circuit
Decision of the Supreme Court of Florida, dated, January 23, 2020
Motion to Circuit Court of Sumter County Probate to reopen case
Motion to Circuit Court of Sumter County additional information
Motion to Circuit Court of Sumter Country Summary Judgement
Judicial Qualifying Committee Complaint
42 U.S. Code § 1983 - Police Misconduct court cases
Circuit Court Probate - Letter of Administration

TABLE OF AUTHORITIES
Florida Statute
Florida Statute 732.201 (20)
Florida Statute §§ 732.102; 733.103
Florida Statute § 731.110
Florida Statute 736.0801 - 0817
Florida Court Cases
Jollie v. State, 405 So.2d 418, 420 (Fla. 1981)
Fla, Star, 530 So.2d at 288 n. 3.
Schilling v. Herrera, 952 So. 2d 1231 (Fla. 3d DCA 2007)
DeWitt v. Duce, 408 So. 2d 216 (Fla. 1981)
U. S. Constitution
1st Amendment - Free Speech
4th Amendment - Prohibition of Illegal Search and Seizure

Appendix
A
B
C
D
E
F
G

H
I

Page
23
23
24
24
4
4
24
24

5,22
5, 10, 22
3

£

1st Amendment - Free Speech
4th Amendment - Prohibition of Illegal Search and Seizure
5th Amendment - Due Process
14th Amendment - Equal Protection
Federal Court Cases
(Thomson v USMC, 29 s.ct 1663 (2009). 556 u.s. 1135 173 Led.2d 1007)
Federal Statutes
18 U.S. Code § 1512 - Tampering with a witness, victim
42 U.S. Code § 1983 - Police Misconduct
18 U.S. Code § 2520 - Recovery of civil damages authorized

5,22

5,10, 22
5, 22
5,22
8
5,21
13
14

OPINION OF THE LOWER COURT
The Probate court, the district court of appeals, and Supreme Court for the State
of Florida presented a decision with an unelaborated opinion.
JURISDICTION
This case is an automatic appeal to the US Supreme Court from the Florida
District Court of Appeals - Fifth District order, dated August 26,2021, and Florida Set
order dated July 1,2021, who would not entertain any more motions, case closed(see
Attachment 1 & 2).
“In Florida Star, this Court succinctly summed up its prior decisions in Dodi
Publishing and Jollie, explaining that this Court does not have subject-matter
jurisdiction over a district court opinion that fails to expressly address a question
of law, such as opinions issued without opinion or citation. Thus, a district court
decision rendered without opinion or citation constitutes a decision from the
highest state court empowered to hear the cause, and appeal may be taken directly
to the United States Supreme Court. Moreover, there can be no actual
conflict.. .an opinion containing only a citation to other case law unless one of the
cases cited as controlling authority is pending before this Court, or has been
reversed on appeal or review, or receded from by this Court, or unless the citation
explicitly notes a contrary holding of another district court or of this Court. See
Jollie v. State, 405 So.2d 418,420 (Fla.1981); Fla. Star, 530 So.2d at 288 n. 3.”
Therefore, the Supreme Court of the United States has subject-matter jurisdiction.
The Florida Supreme Court would not accept further motions Attachment 2).

4

A

5th Amendment - Due Process
14th Amendment - Equal Protection
Federal Court Cases
(Thomson v USMC, 29 s.ct. 1663 (2009). 556 u.s. 1135 173 l.ed.2d 1007)
Federal Statutes
18 U.S. Code § 1512 - Tampering with a witness, victim
42 U.S. Code § 1983 - Police Misconduct
18 U.S. Code § 2520 - Recovery of civil damages authorized

5,22
5,22
8
5,21
13
14

OPINION OF THE LOWER COURT
The Probate court, the district court of appeals, and Supreme Court for
the State of Florida presented a decision with an unelaborated opinion.
JURISDICTION
This case is an automatic appeal to the United States Supreme Court
based on the Supreme Court of Florida order dated, July 1, 2021 (see
Appendix C).
“In Florida Star, this Court succinctly summed up its prior decisions in Dodi
Publishing and Jollie, explaining that this Court does not have subject-matter
jurisdiction over a district court opinion that fails to expressly address a question
of law, such as opinions issued without opinion or citation. Thus, a district court
decision rendered without opinion or citation constitutes a decision from the
highest state court empowered to hear the cause, and appeal may be taken directly
to the United States Supreme Court. Moreover, there can be no actual
conflict.. .an opinion containing only a citation to other case law unless one of the
cases cited as controlling authority is pending before this Court, or has been
reversed on appeal or review, or receded from by this Court, or unless the citation
explicitly notes a contrary holding of another district court or of this Court. See
Jollie v. State, 405 So.2d 418, 420 (Fla.1981); Fla. Star, 530 So.2d at 288 n. 3.”
Therefore, the Supreme Court of the United States has subject-matter
jurisdiction.

4

Subsequent Events Preface
This Writ of Certiorari is a continuation of the prior case before the US
Supreme Court, (Set), which denied Cert. In an unpublished decision dated June
15, 2020, case number 19-8238. The case and facts demonstrate beyond any
reasonable man standard that the courts are aware of, or conspiring, to cover up the
actions of government agencies.
For the second time, the Florida District Court of Appeals- Fifth District
(Florida 5tth DCA), and Florida Supreme Court, (Florida Set), have gone against
its own Civil Rules of Procedure 1.540. That requires the court to take an
independent action, sua sponte, irrelevant of the procedural flaws, to address
extrinsic fraud and a fraud upon the court. Then issuing an unelaborated Opinion
that is a direct appeal to the Set..
By the facts, alleging and pointing the finger at the Set.. Which infers the
Set. has done something to override Constitutional Rights and allow government
agencies and actors immunity for death threats, acts of intimidation, setting the
Appellant up in court, and destroying the Appellants career, reputation, ability to
earn a living in this country, destroying his family with financial insecurity and
disbelief, and on top of everything else defrauding his mother’s trust.

Subsequent Events Background
Made Part of this Writ of Certiorari is the prior Writ of Certiorari, that
provides a summary of key events, with cites. The Appendix is on file with the Set.
from the prior case. To document the allegations and egregious actions of the
government, government actors, attorneys, and the court.
Florida Rule of Civil Procedure “1.540 (b) provides that a final judgment
may be set aside for mistakes, ... fraud”, and other issues. This should require the
Florida 5th DCA and or the Florida Set. to set aside the decision of the lower court,
recall the mandate, and require an extensive review as the elements of fraud
present on the court. “FED. R. Civ. P. 60(b) are virtually identical, ... The entire
sentence reads: judgment, order, or proceeding, or to grant relief to a defendant not
actually personally notified as provided in Title 28, USC, § 1655, or to set aside a
judgment for fraud upon the court".
The appellant took all legal steps, as a pro se, to demonstrate that the Florida
5th DCA was negligent in its decision and went against the requirement the court
act sua sponte when there is allegations of extrinsic fraud and fraud upon the court.
(Fla. R. Civ. P. 1.540(b)(3); FED. R. Civ. P. 60(b)).
Knowing the only court that can set aside a DCA ruling is the Florida Set.,
and Set. The actions of both the Florida 5th DCA and Florida Set only attest to the

2

automatic appeal to the Set.. That the lower courts could not issue an elaborated
opinion, as to do so would be perjurious at best, with their actions pointing the
finger to the Set.
Leaving one to question just what the Set has done to override constitutional
rights of the Appellant and run, not a court ruling, but an inquisition against the
Appellant. Further asking the court when burning at the stake will be the new
standard.
Hostile Witnesses
The Appellant was prepared to call as hostile witnesses several informants,
police, and attorneys. The passage of time and blockage that has occurred has seen
some deceased or moved on.
One, the infamous LL, who was an informant for the ATF and orchestrated
defrauding the trust in question, with legal acumen far beyond her scope and
ability, as noted in the Motion to Recall and Set Aside a Mandate issued by the
Florida 5th DCA (Attachment 1 and 3).
A key player in this was found to be a local detective, who was an Officer in
the USMC, wounded in the first Gulf War, and unable to return to active duty, with
Military intel. This individual is who I believe orchestrated taking my original
Military Records file from St Louis. Not copies, but the entire original records file,

that was on loan to the Commandant of the Marine Corps. Subsequently lost and
had to be reconstructed from other records, as I was told.
There were 42 blacked out entries in my NPRC tracking record that was
mysteriously mailed to me after I filed a case in the Federal Court in West Palm
Beach. But even with an 11th Circuit Court of Appeals Ruling, not the military nor
would the Federal District Court enforce to take the black off my NPRC records.
How could they, my records were not there?
This local Police Department had been the target of several complaints I
filed with the DOJ Special Litigation unit. Subsequently, written up for drug
trafficking, false police reports, and child pornography. They were supposed to be
annexed into the local Sheriffs Department, that never happened. There are several
other hostile informants who are known to work for this police department, and
accounts for the false police reports and more.
These informants, and others, many, are from a large family of Lebanese
who, as I came to know, are working for Mossad, and have been for many years.
Mossad was thrown out of Boca Raton PD in the late 80’s. But were using many
small PD’s records to investigate Americans. A retired Detective from Delray
Beach told me they had the same problem.

2

It is my belief that this detective on the witness stand would admit that my
Military Records were given to a foreign country intelligence agency working here
in America. That is reinforced by comments that I made when checking out of
supply upon my discharge from the USMC, that I was amazed was in my records.
Comments made by an informant who is now deceased. Together with, my living
in rental houses in Miami. Comments from this informant that reinforced someone
had built a dossier on me, and he admitted just that. Obviously, he was going to be
a hostile witness also.
All this information was given to the DOJ and the implications from these
events and a subsequent event opens a major issue that has never been
investigated. From the government and courts own actions protecting these
agencies and individuals it appears it is well known.
In essence, we have a foreign country intelligence agency, running
undercover, and using local PD’s to investigate and receive confidential
information on Americans. That includes my Military Records that I don’t even
know what is in them. I worked with, at the time, top secret, encryption devices,
and weapons systems in Vietnam. That is espionage by a foreign intelligence
agency who has stolen the plans for top secret nuclear devices in the past. Noted in
the news was Pollack.

d

Further reinforcing, strange occurrences in my Cap Stone class at Nova
University, that wrecked of military personnel, and the VA lack of treatment for
blunt force trauma in battle. Resulting in over 5 years on and off antibiotics. As
one VA Emergency Room Physician stated, I kept you alive. Oh yes, he was going
to be a witness also.
There were many hostile witnesses I planned to bring forward in Federal
Court before a jury. And I was going to be asking the questions. I had told the
Clerk in the West Palm Beach Federal District Court to tell the Judge to get a big
white tent, with a tunnel, to hide their skulking faces, and those were my exact
words.
Further, Military intel involved in this reinforces that I could not go
anywhere in this country without being set upon. They are in every reserve unit
nationwide and a direct link into local police and other government agencies.
The following is the prior motion for certiorari, and made part of this motion
for certiorari, to reinforce the egregious actions of government agencies,
government actors, and the court. The Appendix is on file with the US Supreme
Court from the prior case.

2

PREFACE
To understand the issues in this case one must have a brief overview
of the players and history. The background presents a cause of action begins
in 1985 and has included acts by the government and government actors in
terrorizing, torturing, and now defrauding a trust. These actions and denial
by the 11th Circuit Court of Appeals in a prior case. Where the clerk’s
office originally stated that the appeal could be reinstated without time
limits. The appeal was under 18 U.S. Code § 1512 - Threatening and
intimidating a witness, victim in a Federal Court.
Such acts that caused the Plaintiff to seek Political Asylum and
Witness Protection in Canada. Only to find the hearing officer would not
allow me to print my documents to support the case that were on my laptop
and on flash drives. Noting Canadian Intel stated to me after investigating a
critical issue occurring in South Florida, their findings agreed with mine.
These actions denied the Plaintiff his constitutionally protected rights
under the first amendment right of free speech, violations of the Fourth
Amendment’s prohibition on illegal search and seizure. Other applications
include violations of Due Process and Equal Protection Fifth and Fourteenth
Amendments. Moreover, the right to life, liberty, and the pursuit of
happiness, as granted in the U.S. Constitution, and by God.
5

JS

BACKGROUND
A Management Override of The Constitution?
The background information is to apprise the Supreme Court of the
United States of a long line of egregious actions that began in 1985 after
passing the CPA exam. To further understand the actions of LL and the
government agencies that plays into defrauding the trust in Probate Court.
Plaintiff was working for the Chairman of the Board of a Major South
Florida NYSE Corporation (NYSE Corp). Just prior to the infamous
untimely firing had found an outside 300-man construction company,
unaffiliated, charging men and materials against the NYSE Corp, building
buildings, and clipping 100% profit.
Subsequently, it was determined the Construction Company was a
backup and controlled by the NYSE Corp. Its stated purpose was to be
brought in if the other labor companies like Red Dot or Carpenter
Contractors of America overpriced.
The Chairman of the Board did not hesitate given internal problems
with the company to take it over and subsequently shut down. There was
anything from shifting expense, loan sharking, kickback arrangements,
fictitious employees on the payroll, to building buildings. I might add I was
astounded to find that the loan sharking was at 20% a week and the usury
6

J

laws, per our attorney, were no longer in effect. This issue was handled very
confidentially and through attorney work product to insulate against any
legal issue that might arise.
Subsequent to that, I was informed I was being promoted to a key
position at the NYSE Corp. I was transferred under the Sr. VP and moving
forward to take over a region. Then as usual I was working at around 7:30
one evening only to find a very tall individual standing at my door in a
security guard uniform, glaring. Most unsettling and the individual left. Then
I was summarily fired for no cause and for years thought it was the NYSE
Corp seeking revenge. Only to find after years of sending out resumes and
trying to build a firm I was blocked. Please note there is no protection for the
CPA.
One individual friendly with my family, a State Prosecutor, stated it
sounded like someone started an investigation and never turned it off. This
set-in motion years of smoking out the “investigator” hiding behind a
whisper.
This effort took off when requesting my Military Records from
NPRC. Only to find the entire original file was on loan to the Commandant
of the Marine Corps. After over a year waiting for the records and need to

7

Q

get war related dental work done at the VA for blunt force trauma incurred
in battle. And requesting under FOIA who had the records and why?
I filed in 2008 in Federal Court to obtain the medical records and to
find out who had my records and why? Immediately, the Department of the
Navy sent an NPRC tracking record with 42 entries blacked out.
The Federal Court blocked me from the beginning, and I appealed to
the 11th Circuit Court of Appeals. This became a Ping Pong match and
ultimately took my case to the US Supreme Court.
The 11th Circuit Court of Appeals had issued a ruling that included, or
words to the effect, Mr. Department of Navy, you do not have a B6 or any
other exemption take the black off the document. Neither the Department of
the Navy nor the Federal District Court would enforce the 11th Circuit Court
of Appeals ruling. The US Supreme Court Denied Certiorari. This case
would have been over had the blacked-out documents been revealed. First,
my records were not at NPRC, and second, whoever had them appeared to
be creating plausible deniability (Thomson v USMC, 29 s.ct. 1663 (2009).
556 u.s. 1135 173 l.ed.2d 1007).
There were other events that instigated another Federal Court action
attacking Boynton Beach Police Department that is further delineated in the
Federal Court Records. The Federal District Court blocked my attack again
8

d

and we were back to the 11th Circuit Court of Appeals. Events unfolded and
I found myself being set up in the Palm Beach County Court. The attached
complaint to the Judicial Qualifying Committee will elaborate on the
documented events that occurred (see Appendix G).
In essence, the documents by all reasonable man standard attest that I
was being threatened right into the court to silence my Federal Lawsuit.
Please note numerous complaints had been filed with the Department of
Justice Special Litigation Unit (DOJ). Including a death threat from Mosad,
in writing, and followed up the next day by a phone call from Israeli Military
in Israel, and numerous threatening actions by government actors
(informants). Including what is believed to be an attempt to entrap Plaintiff
in a murder for hire scheme. Please note in a meeting with a retired detective
from Delray Beach Police Department. He stated, “we have the same
problem here”.
Additionally, an attempted assault and theft of my laptop. The
individual was known to others and from the interaction with police was an
informant. Subsequent to that a client was brought up under I.R.S. audit on
issues that only could have been discovered from my computer that were to
correct an event. Meaning the informants and police who reviewed my
computer had broken into my CPA Firm. Shielded under Certified Public
9

Accountant confidentiality rules and instigated a complaint with the IRS.
When I called IRS, they laughed. As even the IRS knew the informant’s
interpretation of the information was incorrect. That is an illegal search and
seizure Under the Fourth Amendment.
Based on numerous complaints to DOJ Boynton Beach Police
Department came under investigation and was charged with filing false
police reports, drug trafficking, and child pornography. The Police
Department was supposed to be annexed into the Palm Beach County
Sheriff s Department, which never occurred.
In my Federal lawsuit attorneys running undercover and working with
the FBI and others were noted. These same individuals had tried to recruit
me through my brother-in-law in a number of face-to-face meetings with the
attorneys involved. At the time I was moving on after my military
experience that included working with the Military Police and making
numerous narcotic busts. Including a commendation for a heroin bust.
I was not interested and got wind of my brother-in-law setting up LW
and took him to another attorney. The attorney was recommended by LL
whose attorney boyfriend worked for the ex-governor of Florida. My
brother-in-law reminded me subsequently over the years “why didn’t you
take him to MB”.

10

t

I

>

•v

*

The case against LW mysteriously disappeared and found he was a
criminal justice major and went to work for the police. These events
occurred in the 1970’s while a college student. I lived on the GI Bill and my
ex-wife worked.
LL and her attorney boyfriend were self-admitted informants for the
ATF and by her actions had branded me a drug dealer going back to the time
of the meeting with LW. The Public Defender’s office inferred this to me in
a conversation. That it was the specific government agency. An agency with
a reputation for being low lives and scum. They were behind the problems,
and I needed two witnesses to overcome. LL was one of many to be called
as a hostile witness in Federal Court in my next filing in the Federal Court
for Damages.
The events of the Palm Beach County Court are stated in the attached
document. Where a 90-day speedy trial ended up at over 2 years and a fiveyear appeal to the 4th DCA. My Public Defender apprised me in writing that
guilty verdict over an email was being appealed to the 4th DCA.
Subsequently finding it was not appealed to the 4th DCA but hung up
before a three-judge panel in the Palm Beach County Court that ended in
2018 after my filing a complaint with the Judicial Qualifying Committee
(Appendix G).
11

—

r
4

;

1

i

V

I

l

I was informed by the public defender that the voice recordings in the
hearing in Palm Beach County Court in the prior case were inaudible. The
intent was to impeach LL who was under oath and discredited as to the false
police report, her being committed to mental institutions, undergoing electric
shock therapy on three occasions, being diagnosed a schizophrenic, and as to
her intent and motives, with documents that were sent to State of Florida
Department of Revenue Children and Families to investigate her for elder
and financial abuse. In furtherance of defrauding the trust.
Additionally, given the Judge and Public Defender denied there was a
defense to the present case in the Palm Beach County Court. I filed a motion
to go prose citing a 4th DCA ruling on point (See Appendix G).
Now to find as I was told by my Public Defender that the voice
recordings in the entire case in the Misdemeanor Court were also inaudible?
After an extensive effort soliciting over 4,000 board certified trial
attorneys. The common response, it’s too big for me, you can’t sue the
government, or as one adjunct professor stated, or words to the effect, I
would not take your case or refer you to another attorney. Noting not one
saw anything but a summary of events and none would even review the
documents or issues.

12

2

42 U.S.C. § 1983 demonstrates a myriad of Federal Court Cases that
demonstrate that Law Enforcement and government actors (informants) can
be sued and held accountable criminally (See Appendix H).
“Every person who, under color of any statute, ordinance, regulation,
custom, or usage, of any State or Territory, subjects, or causes to be
subjected, any citizen of the United States or other person within the
jurisdiction thereof to the deprivation of any rights, privileges, or
immunities secured by the Constitution and laws, shall be liable to the
party injured in an action at law, suit in equity, or other proper
proceeding for redress”.
In the 1970’s I thought the actions of criminal defense attorneys and
informants working with the FBI and others was isolated. Only to find today
this is extensive. Also finding judges protecting these government agencies,
attorneys, and informants. My experience demonstrated the informants have
what appears to be organizational charts and training classes. Additionally,
the police are providing them with Confidential information or dossiers.
As one informant new I rented houses in Miami, and a specific
comment I had made that was in my military records. Still raising concern
just who got my records and why they had a dossier on me. And more
importantly I was never arrested or interrogated regarding any crime. This
became a feeding frenzy with a member of Military Intel being caught also.
As the State Prosecutor said, it sounds like someone opened an
investigation and never turned it off, and how do you prove a whisper.
13

18 U.S.C. § 2520 (1976) demonstrate that government agencies
cannot hide behind the actions of government actors, informants. All police
behavior alleged to violate a citizen's constitutional rights with the exception
of wiretapping.
Only to find that LL and her attorney boyfriend GL who were known
informants for this specific government agency. Had branded the Petitioner a
drug dealer. That set-in motion a journey into terror and torture by the
government agency, Attorneys, and Informants for Acts Discreditable. That
destroyed the Petitioners career, reputation, family with financial insecurity,
and left the skeletons on the side of the street hiding behind a whisper. And
now the actions of the probate court portend they have defrauded a trust to
further cause the plaintiff financial and psychological damage.

ARGUMENT - PROBATE CASE
In 2010, after staying at the Villages my mother requested, I review
her Trust Documents and those of the competing Trust. We set upon clearing
up some issues to ensure she was protected. She had stated that LL was her
trustee and wanted me to be the Trustee. I declined and suggested my
brother who was also a CPA.
Prior to getting the changes to the competing trust document
immortalized in writing the other trust principle died. As further elaborated
14

on in the attached filing with the Circuit Court in Sumter County Probate
Court there were nefarious acts by the Competing trust heir, attorney and LL
(Appendix D & E).
It was in late 2018 I found my mother was deceased and had succumb
to Alzheimer’s and that she had been hospitalized in 2013. Suffering from
another broken back under LL care. That was discovered through an internet
search checking up on the properties. Also, that the mothers home had been
sold in a questionable transaction and amount to the competing Trust Heir.
The sale was not in an arm’s length transaction and well below the
original cost and FMV. Subsequently issued two demand letters to LL return
receipt requested with no response (Appendix D & E).
I did not learn of LL death until after the retrial date for the infamous
email in the Palm Beach County Court. The Public Defender did not apprise
that the state’s star witness LL had expired, nor would they defend the case
again. Leaving me no choice but to accept a guilty plea no pros.
I subsequently learned of LL death from a communication one of my
daughters had with LL ex-husband that LL was deceased. Then filed in
Probate Court to reopen the case (Appendix E attachment 5).
My initial conversations with the Probate clerk showed shock and
disbelief that LL was the trustee, and there were trust documents that
15

insulated the trust from probate. The clerk’s office became very sarcastic as
to my being prose. Given my financial situation and after having found no
attorney would represent my case in Federal Court. I had no choice but to go
pro se. Note the clerk’s office apprised me I was not a party to the contract
and was not notified as they had no requirement to do so.
Now, we find an attorney in Clermont Florida was used to file in
probate. An unknown attorney that was not familiar with the trust and well
outside of both the Villages and the fictitious personal representative who
lives in Cape Coral, Florida. Clermont is on the outskirts of Orlando,
Florida. Even the Probate Clerk found it unusual.
I filed a motion with the Probate Court to reopen the case citing fraud
and the prior acts of LL. An order to obtain NART medical records and the
trust documents on file with Wells Fargo Bank (Appendix D, E, G, H).
The Motion to reopen the case included Documents that reflected the
signature of NART when the asset was acquired and the forged signature
when the transfer occurred. Noting that my in-person conversations with
Wells Fargo Bank was very deceptive and sarcastic. Almost belligerent on
the part of the Bank Representative. Those documents and the signature are
needed to further support that we have a fraudulent transaction (Appendix E
Attachment 2).
16

The defendant’s attorney did not respond to any motions to the Circuit
Court, the District Court of Appeals, nor the Supreme Court of the State of
Florida. Inferring by their action that they did not dispute the'allegation.
Plaintiff filed for a Summary Judgement. The Circuit court ignored the
findings of fraud, and the move for a summary judgement.
Noting also that the document obtained from the Real Estate Tax Assessors
office demonstrated the signature on the transfer of the asset in question was
forged at a time NART is believed to have been under care for a broken
back, in and out of nursing homes, and taking Dilaudid a power pain killer.
That alone left her delusional from the prior episode.
Additionally, she was suffering from accident and Alzheimer’s the
end stage cause of death. The Plaintiff believes the records and physician
reports will attest to the fact NART was not mentally competent to enter into
these transactions. Moreover, that LL was attempting to defraud the trust and
did, and the court is attempting to cover up the antics and criminal acts of
government agencies, and government actors (Appendix D attachment 2).
The plaintiff requested court orders to obtain deceased medical
records and original documents with Wells Fargo Bank to establish the
mental state of the deceased, date and signature on those documents.
Additionally, a history of LL demonstrating her motive, means, opportunity
17

and intent to defraud the trust. That included violent behavior in police
report, false police report, and creating an email as the plaintiff did not write
the email in question (see Appendix E Attachment 1).
Note, LL had Plaintiffs computer and password and is known to have
conspired with the ex-wife to create a hostile environment. Supporting her
intent to make sure no one was comfortable going to the Villages to check
up on the deceased or her actions.
The facts of this case demonstrate a long line of abuse by the
government agencies, attorneys, and government actors (informants). That
went right into the court based on the documents included in the Appendix
G, and the Public Defenders knowledge of the specific government agency.
Analysis ofDocuments
The signature of NART is demonstrated on a Warranty Deed, dated
May 12, 2006, A Trust Deed, Dated June 26, 2007, and Corrective Trust
Deed, dated January 29, 2009. These signatures as compared to the
Warranty Deed, Dated October 26, 2011 demonstrates that how she signed
with a distinctive slash from the T crossing over the N in her first name and
flare going well below the line. The script of her last name shows a flare and
line for much of the letters. The signature on these documents is clearly not
that of NART and looks to have either been replaced by generating a new
18

page or an attempt to write her signature and child like in comparison
(Appendix E Attachment 2).
The Trust Deed dated January 9, 2009 provides LL a life estate in the
property located at 985 Davit Place, The Village, Florida 33162. Why
would she need a life estate if she was the heir? (Appendix E Attachment 3)
NART died on August 27, 2016. On October 4, 2016 LL was
appointed a personal representative of the Trust by the court by Judge
Morley. Noting she had issued letters of administration in the trust. There
was no notification to the heirs nor any communication of the death of
NART. As evidenced by the demand letters sent to LL, with no response
(Appendix E Attachment 3, Appendix D Attachment 3 & 4).
In a face-to-face conversation with representatives of Wells Fargo
Bank. The Petitioner was shown a computer screen that demonstrated the
Trust at 985 Davit Address but that there were no documents.
This presented a problem as the address on file was the 1677 Nelson
Terrace Address and had to have been changed to the 985 Davit place. Then
stated even if I had a court order, they would not provide the Trust
Documents. First denying the existence then admitting.
In a conversation with Wells Fargo Customer service the existence of
the Trust and change was admitted to. Stating my brother and I were
19

originally heirs but changed and would not elaborate. I then apprised the
Wells Fargo representative they were now party to a fraud investigation.
We have forged trust documents. LL did not submit the trust
documents to the court to avoid probate. The court appointed LL a personal
representative when she was the trustee (Appendix I).
In 2010 LL was turned into the Florida Department of Revenue,
Children and Families to have her investigated for elder abuse and financial
manipulation. They did not investigate. That was also presented in the
hearing before Judge Burton where LL was discredited with filing a false
police report and her background was elicited. The court threw out the
injunction and the false arrest was thrown out in the criminal case. LL had
filed a police report that I was armed and dangerous going to Palm Beach to
kill someone, (see Appendix G).
The attorney representing LL and JC was not a party to any Trust
document nor in the area and raises suspicion as to why?
The court instead of reopening the case and providing the court order
to obtain NART medical records and Trust document opted to disregard the
facts presented and denied. Stating in her order not a party to the contract.

20

This not only infers a cover up but is in keeping with the court
protecting the government agencies and informants even with criminal acts
present.
Note, Prior to the death of NART my brother informed me that LL
called him stating she and NART were not getting along and she would need
to go live with him. WT responded, or words to the effect, fine bring the
trust documents, all financial records, check books and bank statements with
her. LL then as he stated appeared to turn to NART and say, “we’re all right,
right mom”. Then hung up.
Therefore, given the deteriorating state of NART medical health. It is
imperative to obtain the Trust documents to determine if they were changed,
by whom, what documents were present. Additionally, this raises serious
question if the Trust documents were legally changed why did Wells Fargo
Bank protest so much? More importantly, why LL did not present the trust
documents to avoid probate all together?
A. Constitutional Issues
The actions of government agencies, government actors, attorneys,
and the court, are demonstrated with documents and Federal court cases.
Plaintiffs filed with the 11th Circuit Court of Appeal. A continuation of an
appeal under Federal Statute 1512: Threatening and Intimidating a Federal
21

Witness and Victim. The 11th Circuit Court of Appeals delayed requiring I
file an Appendix for which Plaintiff was under threat and financially unable
to file the voluminous document. Followed by a request for political asylum
and witness protection in Canada. Due to events that have gone on since
1985. Events that include threats, intimidation, setting the plaintiff up using
government actors, false police reports, false arrest, suborned perjury,
blocking plaintiffs’ efforts of employment and firm, attempted assault, theft
of the Plaintiffs laptop and breaking into his CPA Firm. Instigating a false
complaint with IRS and the court protecting those government agencies,
government actors, and attorneys. LA attempt to set me up for a murder for
hire scheme. All these events are in my Federal Lawsuits enumerated in the
Certificate of Interested Persons and Corporate Disclosure Statement in this
document.
Note, I told the Federal District Court Clerk to “tell the Judge to get a
big white tent with tunnel to hide their skulking faces”. My intent is to pull
in known informants and attorneys to have them testify under oath before a
Federal Judge and Jury as to just what they have been doing. Please note
several individuals I know who they work for. One took me on a tour of the
FBI.

22

These actions denied the Plaintiff his constitutionally protected rights
under the first amendment right of free speech, violations of the Fourth
Amendment’s prohibition on illegal search and seizure. Other applications
include violations of Due Process and Equal Protection Fifth and Fourteenth
Amendments.
B. Statutory Scheme Supports Plaintiffs Claim
Florida Statute 732.201 (20) tells us that “‘Heirs’ or ‘heirs at law’
means those persons, including the surviving spouse, who are entitled under
the statutes of intestate succession to the property of a decedent.” (2018).
In an intestate estate, only certain members of the decedent’s family,
known as heirs, can be potential beneficiaries (Fla. Stat. §§ 732.102;
733.103). The distinction between heirs and beneficiaries is fundamentally
important, as it is beneficiaries who are always entitled to notice of probate
in Florida.
LL was an appointed Trustee by NART to perform the tasks listed in
the trust, which typically include the distribution of assets to the
beneficiaries and handling any other issues that may arise in the
administration of the trust. A trust is a private document and is usually
prepared for tax purposes, creditor protection and avoiding probate. A

23

personal representative is someone or some entity in a Will or appointed by
the probate court to administer the estate of a deceased person.
The Trustee did not act in good faith. No notice of change in
administration or probate court. The trustee did not seek advice of heirs prior
to the sale of the asset. The Trustee did not notify of the death of the mother
and her refusal to comply with Demand for Accounting and Distribution
(Florida Statutes 736.0801 - 0817).
Fortunately, safeguards are available for individuals who suspect that
administration may have commenced or is likely to commence without
notice. For one, information regarding probate proceedings is disseminated
online by the Circuit Courts of most Florida counties. Individuals wishing
to take an even more proactive approach can file a caveat, discussed here,
which triggers a compulsory response regarding the status of probate in most
instances (See Fla. Stat. § 731.110).
As in the present case the Defendant’s fraud was not discovered until
after probate, plaintiff is allowed to bring a later action for damages since
relief in the probate court was impossible (Schilling v. Herrera, 952 So. 2d
1231 (Fla. 3dDCA 2007)).
In DeWitt v. Duce, the Florida Supreme Court set forth the rule of
tortious interference, stating that: if adequate relief is available in a probate
24

proceeding, then that remedy must be exhausted before a tortuous
interference claim may be pursued (408 So. 2d 216 (Fla. 1981)).
Plaintiff exhausted the remedies in the 5th Circuit Court of Florida
Probate as the judge considering documents that support fraud existed,
attorney misconduct, the mental state of the deceased, and LL intent, denied.
CONCLUSION
The plaintiff has demonstrated a long line of egregious actions by the
government. Actions that began with the plaintiff being branded a drug
dealer by LL and her attorney boyfriend who were and are known
informants for a government agency. That set-in motion a journey upon
passing the CPA exam for acts discreditable that led to the destruction of my
career, reputation, family, and all I sought to achieve.
What was thought to be a unique event in the 70’s to address the
growing drug problem in this country has become a common event. That has
evolved to a vigilante mob running rough shod over society, with the court
protecting the criminal actions of government agencies. Agencies that
cannot escape liability in damages or criminally for the acts of its
government actors. Only to find the court protecting these actions. Actions
that include threatening and intimidating a federal witness victim while in
Federal Court and defrauding a trust.
25

The intent to deny plaintiff financial relief and psychological damage.
An intent from the beginning to drive the plaintiff into a life of crime. All
the time being surrounded by informants who tried to set the plaintiff up. To
charge him for some nefarious crime and say, “see he’s a criminal”.
As in the present case the Circuit Court denied opening up the probate
case considering fraud, attorney misconduct, and know well the mental state
of the deceased was impaired, and she was not competent to enter into any
transactions. This is an obvious attempt to cover up the criminal actions of
the government agencies and informants who the court are known to protect
and allow criminal actions by.
The petition for a writ of certiorari should be granted.
I declare under penalty of perjury that the foregoing is true and correct. Executed on
September 3, 2021.

Morris Kent Thompson, Pro Sfe-

26

CERTIFICATE OF COMPLIANCE
I certify that this brief complies with the type-volume limitations set forth in Rule 32(a)
(7) (b). This notice contains 4,551 words. Times New Roman 14 Pt.

CERTIFICATE OF SERVICE
FRAP 259 b) through (d) (see reverse) requires that at or before the time of filing a paper,
a party must serve a copy on the other parties to the appeal or review. In addition, the
person who made service must certify that the other parties have been served, indicating
the date and manner of service, the names of the persons served, and their addresses.
You may use this form to fulfill this requirement. Please type or print legibly.
I hereby certify that a true copy of the foregoing PETITION FOR WRIT OF
CERTIORARI and Certificate of Interested Persons and Corporate Disclosure Statement
was served by:
[ x] Deposited in the U.S. Mail
And properly addressed to the persons whose names and addresses are listed below:
Patrick L. Smith, Esq. 179 N. US HWY 27, Suite F, Clermont, FI. 34711, For Jennifer A.
Cerato

Certificate of Interested Persons and Corporate Disclosure Statement
Interested person:
1.
Wayne N. Thompson
2.
Robert Renner
3.
Kathlyn Renner
4.
Judge Burton
5.
Robert Gilbert
6.
Morris Kent Thomson
7.
Jennifer Leppek Cerato
8.
Susan Sullivan, Esq
9.
Larkin Sullivan
10.
Patrick L. Smith, Esq
11.
Louis Aventino, Deerfield Beach, Florida
12.
Maurice Graham, Attorney, Pompano Beach, Florida
13.
Milton S. Jennings, Palm Beach Gardens, Florida, formerly Miami Florida
14.
Norman Ghanem, Boca Raton, Florida
15.
Carolyn Eckroade, Palm Beach Gardens, Florida, formerly Miami Florida
16.
Jeffrey Robertson, Miami Lakes, Florida
17.
Thomas R. Herrera, Miami/Hollywood, Florida, Formerly New York, N.Y.
18.
Jeff Neilson, Banker, Miami, Florida, retired in Virginia, Former Naval Intel
27

19.
20.

21.
22.

Paul McMahon, attorney, Coconut Grove, Florida
Zack Michael Slaibi, Boca Raton/West Palm Beach, Florida
Christian Johansson, Miami, Florida
Dan Perez, Miami, Florida

Southern District Of Florida [ United States District Court
Docket No. 08-80312-CV-KLR
Docket No. 09:10-CV-81233-KRL
Docket No. 10-81233-CIV
Docket No. 13-80308-CIV-MARRA
Not all inclusive
11th Circuit Court of Appeals
Docket No. 09-16523
Docket No. 11782C
Docket No. 16212F
Not all Inclusive
US Supreme Court
Docket No. 08-8281
29 s.ct. 1663 (2009) 556 u.s. 1135 173 l.ed.2d 1007
[X] All parties do not appear in the caption of case on the cover page. A list
of all parties to the proceedings in the court whose judgment is the subject of
this petition is as follows:
Department of Justice, Federal Bureau of Investigation
Department of Alcohol, Tobacco, and Firearms
Department of the Navy, Headquarters USMC
Ferrer, Wilfredo A. _ US Attorney
Ryscamp, Hon. Kenneth L.
Schultz, Anne R. - Chief Appellate Division
Vitunac, Hon. Anne E.

28

